<html>
<title> - [H.A.S.C. No. 114-74] CONCURRENT RECEIPT OF SURVIVOR BENEFIT PLAN AND DEPENDENCY AND INDEMNITY COMPENSATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-74]

                     CONCURRENT RECEIPT OF SURVIVOR

                    BENEFIT PLAN AND DEPENDENCY AND

                         INDEMNITY COMPENSATION

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 9, 2015


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    







                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-279                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    JOSEPH J. HECK, Nevada, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOHN KLINE, Minnesota                ROBERT A. BRADY, Pennsylvania
MIKE COFFMAN, Colorado               NIKI TSONGAS, Massachusetts
THOMAS MacARTHUR, New Jersey, Vice   JACKIE SPEIER, California
    Chair                            TIMOTHY J. WALZ, Minnesota
ELISE M. STEFANIK, New York          BETO O'ROURKE, Texas
PAUL COOK, California
STEPHEN KNIGHT, California
               Dave Giachetti, Professional Staff Member
                Craig Greene, Professional Staff Member
                           Colin Bosse, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Heck, Hon. Joseph J., a Representative from Nevada, Chairman, 
  Subcommittee on Military Personnel.............................     1
Wilson, Hon. Joe, a Representative from South Carolina, Committee 
  on Armed Services..............................................     2

                               WITNESSES

Davis, Joseph E., Director of Public Affairs, Veterans of Foreign 
  Wars of the United States Washington Office....................     8
Kinnard, Chris, Co-Chair for Government Relations Committee, Gold 
  Star Wives of America..........................................     4
Ostrowski, Senior Chief Jon, USCGR (Ret.), Director, Government 
  Affairs, Non Commissioned Officers Association of the United 
  States.........................................................     6
Strobridge, Col Steve, USAF (Ret.), Director, Government 
  Relations, Military Officers Association of America............     5

                                APPENDIX

Prepared Statements:

    Davis, Joseph E..............................................    49
    Heck, Hon. Joseph J..........................................    17
    Kinnard, Chris...............................................    20
    Ostrowski, Senior Chief Jon..................................    38
    Strobridge, Col Steve........................................    28
    Wilson, Hon. Joe.............................................    18

Documents Submitted for the Record:

  Statements of:
    American Military Retirees Association.......................    59
    Livingston, MajGen James E., USMC (Ret.).....................    63
    National Association for Uniformed Services..................    66
    National Military and Veterans Alliance......................    76
    National Military Family Association.........................    71
    Prout, Kathleen M., Gold Star Surviving Spouse...............    79
    Smith, Edith G., Citizen Advocate for Deceased Military 
      Retirees and Their Survivors...............................    89
    Society of Military Widows...................................   113
    The Retired Enlisted Association.............................    83
    Tragedy Assistance Program for Survivors.....................   116
    Wersel, Dr. Vivianne Cisneros................................   120

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................   135
    Mr. Walz.....................................................   137











    CONCURRENT RECEIPT OF SURVIVOR BENEFIT PLAN AND DEPENDENCY AND 
                         INDEMNITY COMPENSATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                       Washington, DC, Wednesday, December 9, 2015.
    The subcommittee met, pursuant to call, at 1:58 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joseph J. Heck 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOSEPH J. HECK, A REPRESENTATIVE FROM 
      NEVADA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Dr. Heck. I want to welcome everyone to today's Military 
Personnel Subcommittee hearing. We are here today to hear from 
military and veterans service organizations on the significant 
policy and financial issues that are associated with the 
Survivor Benefit Plan and Dependency and Indemnity 
Compensation, most notably the issue of concurrent receipt.
    As originally created in 1972, the military Survivor 
Benefit Plan, or SBP, was designed to provide annuity to the 
survivors of retirement-eligible military personnel. Congress 
expanded the coverage to the survivors of individuals who died 
while on Active Duty.
    Dependency and Indemnity Compensation, or DIC, was 
established in 1956 for survivors of certain service members 
and veterans. This benefit is administered by the Department of 
Veterans Affairs. DIC is a monthly tax-free cash payment to 
survivors and dependents of service members killed while on 
active military duty.
    Certain eligible veterans who die from service-related 
conditions are also eligible for DIC. The significant policy 
issues that are associated with these benefits include the DIC 
offset of Survivor Benefit Plan payments, often referred to as 
the widow's tax; adequacy of the payment for survivors compared 
with other retirement systems payments to surviving spouses; 
the remarriage age of 57; and the maximum DIC payments for 
parents based on income levels that have not been adjusted for 
inflation.
    Our panel was asked to share their views and that of their 
members and help inform us about the impacts on survivors of 
these policy issues.
    Before I introduce our panel, I would like to offer 
Congresswoman Davis, our ranking member, an opportunity to make 
any opening remarks.
    [The prepared statement of Dr. Heck can be found in the 
Appendix on page 17.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis of California. Thank you, Mr. Chairman. And I 
also want to welcome all of you here today. Thank you for 
joining us.
    As we all know, the SBP-DIC offset is a critically 
important issue, and we have certainly recognized that here on 
the committee, but particularly we recognized it with our 
beneficiaries. And we have attempted to fix some of the issues 
in the past, but we also know that those darn budget rules get 
in the way and that makes it really challenging, I think, to 
try and address it, certainly in total.
    In 2009, this committee addressed a portion of the SBP-DIC 
offset when we created the Special Survivor Indemnity 
Allowance, by finding a small amount of mandatory dollars to 
provide an additional stipend to those receiving that benefit. 
And unfortunately, the mandatory offsets required to address 
this issue have become extremely difficult to find now, 
especially in the amounts required, and of course, we look to 
you to help us do that as well.
    I am interested to hear your thoughts today on any 
solutions that you may have to help us address the offset so we 
can finally make some positive change. Thank you so much for 
being here.
    Dr. Heck. Thank you, Mrs. Davis.
    I now ask unanimous consent that the following testimony be 
entered into the record: From the American Military Retirees 
Association; Major General James E. Livingston, United States 
Marine Corps, retired; National Association for Uniformed 
Services; National Military Family Association; National 
Military [and] Veterans Alliance; Kathy M. Prout, Gold Star 
surviving spouse; The Retired Enlisted Association; Edith 
Smith; Society of Military Widows, Janet Snyder; Tragedy 
Assistance Program for Survivors; Dr. Vivianne Wersel, Gold 
Star surviving spouse; and that Representative Joe Wilson of 
South Carolina, former chairman of this subcommittee, be 
allowed to participate and read his statement for the record.
    Without objection, so ordered.
    [The testimony referred to can be found in the Appendix 
beginning on page 59.]
    Dr. Heck. I will now recognize Mr. Wilson for his 
statement.

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
             CAROLINA, COMMITTEE ON ARMED SERVICES

    Mr. Wilson. Thank you, Mr. Chairman, and thank you for your 
leadership for military families by holding this important 
hearing today on the concurrent receipt of Survivor Benefit 
Plan, SBP, and Dependency and Indemnity Compensation, DIC.
    I am grateful for your recognition of this problem and your 
efforts in correcting it, which is bipartisan as confirmed by 
the cosponsorship of this legislation by Ranking Member Susan 
Davis.
    I would also like to thank the organizations testifying 
before the subcommittee today for their dedication to this 
critical issue: Gold Star Wives of America, Military Officers 
Association of America, Veterans of Foreign Wars of the United 
States, and the Non Commissioned Officers Association of the 
United States.
    Additionally, I was really grateful to hear about a letter 
of support from General James Livingston of Mount Pleasant, 
South Carolina, a distinguished recipient of the Medal of 
Honor, and a real champion for military families. Without their 
efforts, this issue would not have made the progress that we 
have had.
    As you know, we have been working on this situation for 
several years, and currently in the 114th Congress we have over 
170 cosponsors of H.R. 1594, the Military Survivor Spouses 
Equity Act, which originally was a cause of my predecessor, the 
late Armed Services Committee Chairman Floyd Spence. This bill 
would end the clearly identified widow's tax or the dollar-for-
dollar offset of payments between the Survivor Benefit Plan and 
Dependency and Indemnity Compensation program.
    Currently, surviving spouses Survivor Benefit Plan payments 
are offset dollar for dollar either partially or totally as a 
result of receiving Dependency and Indemnity Compensation. The 
offset wipes out most or all of the SBP entitlement and affects 
over 60,000 widows and widowers. The substitution of the 
Dependency and Indemnity Compensation for Survivor Benefit Plan 
payments is clearly unjust.
    The spouses of military service members are owed a debt of 
gratitude and appreciation. These spouses provide the support 
and strength to our men and women in uniform when they secure 
our freedom at home and abroad. As a military spouse, they too 
devote their lives to serving our country. Military families 
make necessary arrangements for their spouses to be taken care 
of in the event of their death. We owe it to these fallen 
heroes to carry out their wishes and ensure their expectations 
are fully met.
    Finally, I would like to acknowledge two individuals that 
have been extremely important to me: Maggie McCloud and Edie 
Smith.
    Maggie previously testified before this subcommittee 
regarding this exact issue and continues to advocate for a 
correction. Her husband served as a military fellow in the 
office that I hold, before he tragically lost his life in Iraq. 
I will always treasure the service of Lieutenant Colonel Trane 
McCloud for America. It is through her unwavering advocacy that 
I became involved in this issue and hope that today we can 
finally come to a resolution.
    Additionally, Edie, who is just effervescent in her 
support, continues to work hard educating members about the 
Military Surviving Spouses Equity Act and has been a fantastic 
resource for a number of members and their offices. Thank you 
for your designation and tireless efforts.
    And I yield back.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 18.]
    Dr. Heck. Thank you, Mr. Wilson.
    We are joined again today by an outstanding panel. We will 
give each witness the opportunity to make opening comments, and 
each member an opportunity to question the witnesses. I 
respectfully ask the witnesses to summarize to the greatest 
extent possible the high points of your written testimony in no 
more than 5 minutes. Your complete written statements will be 
entered into the hearing record.
    As a reminder, the lights in front of you will turn yellow 
when you have 1 minute remaining and red when your time is 
concluded.
    And this would not be a Military Personnel Subcommittee 
meeting if we did not have votes scheduled to interrupt the 
committee meeting at some point. So please bear with us. When 
the bell rings, we will run over and vote and then come on back 
to finish up.
    We are joined today by Ms. Chris Kinnard, Co-Chair for 
Government Relations Committee, Gold Star Wives of America; Mr. 
Steven Strobridge, Colonel, United States Air Force, retired, 
Director of Government Relations of the Military Officers 
Association of America; Mr. Jon Ostrowski, Senior Chief, United 
States Coast Guard Reserve, retired, Director of Government 
Affairs of the Non Commissioned Officers Association of the 
United States; and Mr. Joe Davis, Director of Public Affairs, 
the Veterans of Foreign Wars of the United States.
    With that, I will recognize Ms. Kinnard for 5 minutes.

 STATEMENT OF CHRIS KINNARD, CO-CHAIR FOR GOVERNMENT RELATIONS 
             COMMITTEE, GOLD STAR WIVES OF AMERICA

    Ms. Kinnard. First of all, I would like to thank you, 
Chairman Heck, and Ranking Member Davis, and everybody else 
that is here for allowing the Gold Star Wives to testify before 
this committee. I have been going with Wreaths Across America. 
It has been late nights and a lot of interesting, emotional 
things. So I just want to bring the testimony to you.
    You have my written testimony. There is a couple of things 
that--did a typo in going through it. But I just want to give 
some examples that maybe that would make it a little bit more 
personal to you that this really does affect, in a heavy-duty 
way, our surviving spouses and our military families. And we 
need to do something about it.
    The first thing is--talked a little bit about the DIC, but 
getting down to the actual surviving spouses benefit program, 
there is a couple of different ways that you can get the 
offset. And then if you have children you are told, first of 
all, you have the shock that your husband has been killed or 
passed away or you found them committing suicide.
    And then the next thing that you have is, okay, you have 
children, you can get SBP and DIC, only full benefits if you 
relinquish to your children everything. But you don't always 
get told that at age 18, not 16, it was 16 when my, I am a 
Vietnam war widow. My son was 16 when we lost his benefits. But 
now it is 18.
    When you lose the benefits at 18 years old, for instance, I 
have a lady from Texas and she has four children. And she found 
her husband, he had committed suicide, and she was the one that 
found him. Then she went through this process and turned 
everything over to her children. Each year her money goes down 
as her children become older.
    She has two masters' degrees and is not working at the 
time, raising four children, single parent. And therefore, at 
the end of the time, she will probably be 20 years out, be 48 
years old with no experience. And even though she has the 
degrees, who is going to hire her? Her money started out at 
$2,200. It will be down to $900 when she finally has her last 
child turn 18. So that is one example and that needs to be 
changed to the 18.
    There is another part where, you know, Congress did 
recognize the fact that there was some problems and the offset 
is not fair because the men will deploy and they think that 
they are providing for their family, but it also depends on 
rank and age and--or not age, but time in service. And when you 
are military or young--which most of them are young that don't 
survive. They are the ones out on the field--then their offset 
is maybe 100 percent.
    And a lot of times they don't realize that the widow would 
get the DIC. So they may think they are going to get more than 
what they actually get. So what happens then when you figure it 
out, again, a lot of times you get the SBP first and then all 
of a sudden you get the DIC and it is like, the SBP is out the 
window, which is a little devastating because you are thinking 
you are going to get $2,500 when you are only going to get 
$1,200.
    And at this point in time, DIC is only $1,254. How many 
people in this country could live on $1,254 a month? And for 
our military widows to survive on that is horrible, just 
horrible.
    I live in Colorado Springs, Colorado, and I have a lady 
there that was from Vietnam and she is living in her car. She 
has nowhere to go. Nowhere to go.
    Then to go on to the SSIA [Special Survivor Indemnity 
Allowance], that, again, I made a typo, it is supposed to be 
2017 not 2016. But the last thing is, the only way that a widow 
can really get her DIC or her SBP full benefits, and DIC full 
benefits, is to remarry after 57. However, if she got a 
premium, premiums paid, then she's got to pay it back. A lady 
in Florida had remarried and had to pay $41,000 back after 20 
years. A shock.
    My time is up. Do you have any questions? Thank you for 
your support.
    [The prepared statement of Ms. Kinnard can be found in the 
Appendix on page 20.]
    Dr. Heck. Thank you, Ms. Kinnard.
    Colonel Strobridge.

   STATEMENT OF COL STEVE STROBRIDGE, USAF (RET.), DIRECTOR, 
 GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA

    Colonel Strobridge. Chairman Heck, Ranking Member Davis, 
and distinguished members of the subcommittee, and Congressman 
Wilson, we are grateful for your calling this hearing and for 
championing the cause of SBP-DIC widows.
    This committee's leadership efforts are the sole reason 
there has been even partial progress toward eliminating the 
unfair deduction of DIC from SBP. In establishing the Special 
Survivor Indemnity Allowance for SBP-DIC widows in 2008, and 
then in 2009 by establishing a schedule of annual SSIA 
increases through 2017, you gave hope to thousands of survivors 
that Congress was finally taking action on their cause.
    The stark reality of their situation and the reason why the 
deduction is so wrong was stated best in the August 2009 
Federal Court of Appeals ruling, in Sharp v. United States, 
which required payment of both SBP and DIC to certain dual-
eligible survivors. After all, the ruling stated, the service 
member paid for both benefits, SBP with premiums, DIC with his 
life.
    But that narrow case applied only to SBP-DIC survivors who 
remarry after age 57, as we just heard from Ms. Kinnard. 
Ironically, it highlighted the inequity even more starkly. The 
law has always penalized survivors who remarry before age 55 
for SBP and 57 for DIC by stopping their payments. Since Sharp 
v. United States, the law now also imposes a financial penalty 
by continuing the offset for survivors who choose not to 
remarry after age 57. So it is kind of like they have got you 
coming and going.
    The ideal solution would be to eliminate the offset for all 
SBP-DIC survivors. Because of budget issues, our hope has been 
that Congress would do that on a phased basis by steadily 
increasing the SSIA amounts over time. As of fiscal year 2017, 
the $310 monthly SSIA will restore about 25 percent of the 
offset. But there is a very near problem, as the statutory 
authority to pay the SSIA will expire on October 1, 2017.
    As a minimum, Congress needs to extend the SSIA in the 
fiscal year 2017 Defense Authorization Act, or SBP widows will 
be made to forfeit the $310 monthly allowance this committee 
worked so hard to win for them. We are sensitive to the 
mandatory spending challenge. But we have to recognize that on 
two prior occasions the committee managed to convince House and 
Senate leaders to use outside offsets to fund the SSIA.
    And when leadership recently managed to find far larger 
offsets to us to provide Medicare premium relief to millions of 
wealthier beneficiaries, it is hard to explain to SBP-DIC 
widows who have suffered five-digit annual losses for decades 
why their situation should have a lower priority. Our hope is 
that their immediate plight is urgent enough to warrant similar 
leadership involvement to find a way to extend the SSIA 
authority and make some further progress on phasing out the 
offset.
    In closing, I want to highlight one further inequity 
affecting survivors of Guard and Reserve members who die on 
inactive duty for training. Their survivor benefits are 
calculated with a reduced formula compared to members who die 
on Active Duty. Their lower SBP amounts are typically wiped out 
by the offset. The coalition believes strongly that their SBP 
formula should be the same as for Active Duty deaths.
    Mr. Chairman, that concludes my remarks. Thank you for the 
opportunity to present them.
    [The prepared statement of Colonel Strobridge appears in 
the Appendix on page 28.]
    Dr. Heck. Thanks, Colonel.
    Senior chief.

    STATEMENT OF SENIOR CHIEF JON OSTROWSKI, USCGR (RET.), 
    DIRECTOR, GOVERNMENT AFFAIRS, NON COMMISSIONED OFFICERS 
                ASSOCIATION OF THE UNITED STATES

    Senior Chief Ostrowski. Chairman Heck, Ranking Member 
Davis, and distinguished members of the subcommittee, on behalf 
of the Non Commissioned Officers Association [NCOA] and its 
nearly 80,000 members, we are grateful to the committee for the 
opportunity to express our views concerning SBP.
    NCOA recognizes all who serve in Congress or in uniformed 
service who swear an oath of office, enlistment, or 
commissioning, in which the following affirmation is sacredly 
promised: To support and defend the Constitution of the United 
States of America. NCOA remains cognizant, as you must also, 
that the military enlistment or commissioning, the significance 
of those words bear the possibility of extreme sacrifice and 
even death.
    NCOA understands that a national debt in excess of $18 
trillion impacts all citizens including military members, 
veterans, and their family members. There is real concern 
across the Nation relative to the resolution of this national 
debt. Many military members, disabled veterans, and veterans 
feel that they will become disenfranchised from their 
healthcare programs and promised benefits as a result of being 
forced to bear the brunt of cost savings plans.
    Simply stated, don't make our veterans pay double for this 
debt. Do not put the burden of balancing the budget on the 
backs of veterans and their survivors. We say, however, that 
this debt was not caused by the Nation's approximately .0016 
percent of the population whose loved ones served in the Armed 
Forces and whose personal sacrifice ensured the freedoms 
enjoyed by all Americans.
    The NCOA believes strongly that current law is unjust in 
reducing military SBP annuities by the amount of any survivor 
benefits payable for the VA [Department of Veterans Affairs] 
DIC program. The NCOA believes strongly that SBP and DIC 
payments are paid for different reasons. Just as military 
retired pay and VA disability compensation compensates for 
different reasons.
    SBP is insurance purchased by the retiree from his or her 
employer, the DOD [Department of Defense], and is intended to 
preserve a portion of service-earned retired pay for the 
survivor upon the retiree's death for any reason. DIC is a 
special indemnity compensation paid to the survivor by the VA 
when a member's service has caused his or her premature death.
    In such cases, the VA indemnity compensation should be 
added to the SBP annuity for the retiree's survivor, not 
substituted for it. NCOA would like to also state that this 
offset affects the enlisted members the most.
    The reality is that in every SBP-DIC case, Active Duty or 
retired, the true premium extracted by the service from both a 
member and the survivor was the ultimate one: The very life of 
the member. NCOA is grateful to the subcommittee for its 
significant efforts in past years to improve the survivor 
benefits plan, and we thank you for that.
    Undoubtedly, the best solution is to eliminate the SBP-DIC 
offset. This is the right thing to do. We know that each of you 
on the subcommittee and in Congress is compassionate about this 
goal.
    In closing, I would like to share a quote by George 
Washington: ``The willingness with which our young people are 
likely to serve in any war, no matter how justified, shall be 
directly proportional to how they perceive how veterans of 
earlier wars were treated and appreciated by our Nation.''
    Mr. Chairman, this concludes my testimony. I am prepared to 
take any questions. Thank you.
    [The prepared statement of Senior Chief Ostrowski can be 
found in the Appendix on page 38.]
    Dr. Heck. Thank you.
    Mr. Davis.

   STATEMENT OF JOSEPH E. DAVIS, DIRECTOR OF PUBLIC AFFAIRS, 
VETERANS OF FOREIGN WARS OF THE UNITED STATES WASHINGTON OFFICE

    Mr. Davis. Good afternoon, Mr. Chairman, Ranking Member 
Davis, members of this subcommittee. Thank you for the 
opportunity to share the collective voice of 1.7 million 
members of the Veterans of Foreign Wars [VFW] and our 
auxiliaries. For the sake of brevity, I will not repeat in 
depth what has already been said.
    But it cannot be overstated that the Survivor Benefit Plan 
is a DOD insurance program paid by military retirees. The 
Dependency and Indemnity Compensation is a VA benefit meant to 
compensate a family for losing a loved one whose premature 
death was a direct result of their military service. It is a 
longtime VFW goal to eliminate this dollar-for-dollar offset 
that exists only to save the government money, which is perhaps 
the ultimate insult our government can inflict on surviving 
military families, on their spouses, because the two payments 
are mutually exclusive and paid for two different reasons from 
two different Federal agencies.
    Earlier this year, the Military Compensation Retirement 
Modernization Commission [MCRMC] recommended a new SBP program 
with a substantially higher monthly premium in order to receive 
a full DIC without offset. The VFW concurs with the 
commission's ultimate goal to eliminate the offset, but we 
disagree with its funding method.
    We want a full repeal of the offset, not to subsidize it 
out of the pockets of military retirees who are already 
required to relinquish up to 6.5 percent of their monthly pay 
for 30 consecutive years just to ensure that their surviving 
spouse will receive 55 percent of their retirement pay.
    Mr. Chairman, the way things are done must be changed. I am 
not a Gold Star family member, but I, and hopefully the rest of 
America, do believe in the fundamental rule of fairness. There 
is nothing fair about financially penalizing widows and 
widowers. Let there be no doubt that the VFW stands with the 
Gold Star Wives everywhere to eliminate this terrible penalty.
    We are painfully aware that the Federal Government's 
resources are very finite, and that sequestration is still the 
law of the land. But our Nation's first priority is to defend 
the homeland; and our second priority must be able to defend 
those who do defend, regardless of whether they served 4 years 
or 40. The VFW has long maintained that if our Nation cannot 
afford to take care of veterans, then we should quit creating 
them.
    Our military has answered every call and met every 
challenge. Now it is Congress' turn. We salute Congressman Joe 
Wilson of South Carolina for once again reintroducing 
legislation to end the offset. It is our hope that today's 
hearing will provide the necessary momentum to propel H.R. 1594 
forward. Thank you.
    [The prepared statement of Mr. Davis can be found in the 
Appendix on page 49.]
    Dr. Heck. Well, I want to thank you all for taking the time 
to be here this afternoon and to present your perspective or 
the perspective of your agencies.
    And I also want to thank everyone else who has taken the 
time, all the Gold Star Wives present, for taking the time to 
be here, and my favorite Gold Star Wife, Janet Snyder from 
Nevada, for taking the time to travel out here. I can tell you, 
the organization has no stronger advocate than Janet Snyder who 
is on a first-name basis with everybody in my office, she calls 
so often.
    You know, Mr. Davis, you addressed the question that I was 
going to bring up which was the MCRMC's recommendation. I would 
like to get the answer from the other three members. So the 
Military Compensation Retirement Modernization Commission, also 
known as the MCRMC in these circles, made the recommendation 
that if total repeal of the offset was not possible, to charge 
a higher premium on the SBP to allow somebody to get full 
benefits out of both. Understanding that that is not the 
desired outcome for probably everybody in this room, just as a 
potential intermediate step or as a step forward, is that 
something that your organization would embrace? Ms. Kinnard.
    Ms. Kinnard. Not really. Our widows are, we are already 
there, already suffering. So for the premiums to be higher, 
that is not really going to do anything for us. We need to have 
an offset repealed or adjusted so that by the future, as they 
were trying to do with the SSIA to try to eliminate the offset, 
that is where we want to go.
    Dr. Heck. Okay. Colonel.
    Colonel Strobridge. Yes, sir, we would agree. To us, that 
is no solution at all. Number one, as she said, it doesn't do 
anything for the current survivors. But even for the future 
survivors, to me that is worse than the current situation 
because it, A, gives up on the government owing any obligation 
and it makes the member fund it completely.
    Not only that but it puts the member in the decision of 
trying to guess whether he or she might die of a service-
connected cause and pay the full price upfront whether or not 
that is going to happen, and most people wouldn't be willing to 
do that. So to us, it wouldn't solve a thing.
    Dr. Heck. Okay. Thanks. Senior chief.
    Senior Chief Ostrowski. Mr. Chairman, NCOA absolutely does 
not support the MCRMC solution. We do believe in to eliminate 
the offset completely. It is unfortunate that we are in the 
budget situation we are in and looking for outside-the-box 
solutions, but in this case this needs to be eliminated 
completely. They are separate pots of money and they were 
earned for separate reasons, and we don't want to have another 
bandage.
    Dr. Heck. Okay. Thank you.
    And, Mr. Davis, you answered in your statement, do you want 
to expand on the previous statement you made?
    Mr. Davis. We don't support it, sir. We don't believe in 
offsetting.
    Dr. Heck. Thank you.
    Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you all for your being so articulate and, I 
think, making what has always been a very strong case, and you 
did a very good job of that.
    You know, I remember a number of years ago, my veterans 
reminding me that in many ways we became a military at war and 
not a Nation at war. I think we all need to take responsibility 
and to do that in a number of ways, and part of it is in the 
way that we make sure that all of this is funded properly and 
that we are able to repeal the SBP-DIC. And I agree with that.
    I wonder, Ms. Kinnard, if you had suggested, because, you 
know, we are looking at $7 billion essentially for this, and at 
the same time you all have spoken in some ways of perhaps 
interim, perhaps phasing, et cetera. And that has been looked 
at in the past as well. But, Ms. Kinnard, you raised the issue 
in terms of children and young people who are 18 and younger. 
What would you do with that? Where do you think that those 
lines should be drawn, and how would you suggest that?
    Ms. Kinnard. Well, first of all, when you first learn of 
your husband's fate, you are in shock. And for a widow to have 
to decide, shall I give the money to my children or to myself, 
you know, to get the full benefit to give it to the children 
and not being told, or if you are told, you don't remember 
anything in the first year anyway, that you are going to lose 
and never be able to regroup that SBP at the end of the--when 
the last child reaches 18.
    You are getting the SBP for the children, the full benefit. 
By the time the last child turns 18, you don't get any benefit 
at all. You just get the DIC. So it needs to be given to the 
widow, and she is the one that is responsible for it. Plus the 
fact that the children are having to pay taxes which, you know, 
the widow is going to have to. But every year you get a little 
note saying, is your one-and-a-half-year-old remarried, you 
know, things that are just bizarre. So I would say that we want 
to have it just go to the widow.
    Mrs. Davis of California. Just go to the widow.
    Ms. Kinnard. There shouldn't be a choice because you are 
not in a place to make that choice at that time.
    Mrs. Davis of California. Others? Do you have thoughts 
about that as well?
    Colonel Strobridge. I think what we have felt, you know, 
one option is an inequity of the current situation, like Ms. 
Kinnard said, is that it goes away. Well, one of the options we 
have supported is saying when the children are gone, it should 
revert to the survivor.
    Senior Chief Ostrowski. We concur. NCOA concurs with Gold 
Star Wives. Nothing further.
    Mrs. Davis of California. Okay. Mr. Davis.
    All right. Thank you very much.
    And in terms of the number of spouses subject to the SBP-
DIC, do you think that that is going to increase dramatically, 
that number? Does anybody have a sense of that?
    Ms. Kinnard. I could answer that for you. I mean, just I am 
a widow from Vietnam, and believe me, after that, what I went 
through, I was 7 months pregnant with my son, my husband was 20 
years old, I didn't want anybody to have to go through what I 
went through. And when we started going to war again and again 
and again, and all these women back here who have suffered the 
same thing and each one has a different story, I just told you 
two little ones, it is going to happen unless we learn to not 
go to war.
    And until we learn that war is not just the military part 
going to war but it is paying for our veterans when they come 
home, our widows, our widowers, our children, like Abraham 
Lincoln said, it is time to heal the country and take care of 
the widows and the orphans, and we are not doing that.
    Mrs. Davis of California. Right. That is all part of it.
    Ms. Kinnard. It is all part of it, and we don't consider 
that in the big budget. You know, DOD says, oh, we are going to 
spend this money on war. Why are they taking our widows' money 
away? It is wrong. It is just wrong. It wouldn't happen in the 
civilian world. It just wouldn't.
    Mrs. Davis of California. Thank you all so much. Appreciate 
you being here.
    Dr. Heck. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And first of all, I would like to begin by thanking each of 
you for your testimony today and your advocacy. And the only 
thing I can read into the wider-than-desired attendance by my 
colleagues on the committee is that you have the support 
because you've been so effective outside of this hearing, in 
our offices, as our chairman has said.
    I would like to thank Mrs. Costello, who has worked with 
our office to ensure that we make the right decision on this 
bill. We sponsored it. We were a cosponsor last session of 
Congress. We will this session again.
    But the argument that you have made in my opinion is 
incontrovertible. And you have made it on its merits, on the 
facts. You have also appealed to, I think, our more important 
sensibilities, the moral dimension of this, of what we ask of 
our service members and then ensuring that we fulfill our end 
of the obligation.
    Mr. Davis, I serve on the Veterans Affairs Committee as 
well for the last 3 years, and you eloquently and efficiently 
put it: If we cannot afford to take care of our veterans and 
their spouses and their dependents, then we cannot afford to go 
to war.
    And I think if we entered these factors into our 
calculations when we went to war, perhaps put an escrow 
percentage of what it costs for every $1 billion we put into 
Iraq, Afghanistan, Syria, Libya, and we have U.S. Armed Forces 
stationed in over 150 countries around the world, if some 
percentage was put away for that veteran, his or her spouse, 
their dependents, you know, I think we would do a better job 
and we would make that connection that is so obvious to us, 
especially when you say it the way you did, Mr. Davis, but make 
that connection in law. So that we don't have these problems in 
the VA, in having you have to come to our offices, testify 
before us to do something that makes only the most common sense 
to any American listening to you.
    So I want to thank Mr. Wilson in his absence for, again, 
introducing this; for the chairman and ranking member for 
holding this committee; for your tireless advocacy which brings 
this issue to home for us in a very personal, very compelling, 
and I hope very effective way, so that we make the fix in law 
that is necessary, that it is fixed in perpetuity so that you 
are not coming back here to advocate for this.
    There are certainly no end of problems that you could come 
back here to remind us of or help us fix. Let's use your 
amazing talents on those. This one we should dispense with 
after this hearing. I really hope that we do.
    So I don't have any questions because you have answered 
them for us. I just want to thank everyone who is here and 
especially the Costello family for their service to my 
community, to our country, and to all surviving spouses and 
dependents going forward. It is that personal advocacy that is 
making a difference.
    So with that, I yield back to the chair.
    Dr. Heck. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I want to thank all of you for being here today.
    My late father was a career soldier and I am retired 
military, and I think one of the toughest things I do as a 
Member of Congress is when a soldier, airman, sailor, or marine 
has died, whether it be from a training accident or in combat 
itself, I spend time with those families. And it is always 
something that is very difficult to do. And every family mourns 
in their own way the loss of their loved one.
    And so I don't think this country appreciates enough those 
who serve our Nation in uniform and make tremendous sacrifices 
on behalf of our freedom. So I just want to thank you and the 
service and the sacrifice of your families. And thank you for 
being here today.
    With that, Mr. Chairman, I yield back.
    Dr. Heck. Mrs. Davis, any other questions? Okay.
    Well, that was the vote bell. So it seems like timing was 
somewhat fortuitous.
    Look, again, we want to thank all of those who took the 
time to travel here to present your testimony. As Mr. O'Rourke, 
and I think Chairman Wilson has been the champion on this 
issue, at least since I have been in Congress. I will look 
forward to working with him as well as the rest of the 
subcommittee and the full committee as we try to move forward 
with a solution to this issue that doesn't, as Mr. O'Rourke 
said, require you to come back time and time again.
    So, again, thank you all for your service and sacrifice to 
our Nation and for taking the time to be here. And this hearing 
will be adjourned.
    [Whereupon, at 2:34 p.m., the subcommittee was adjourned.]



      
=======================================================================

                            A P P E N D I X

                            December 9, 2015

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 9, 2015

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            December 9, 2015

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
      
         
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 9, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. COFFMAN

    Mr. Coffman. What is the impact of the suspension of SBP/DIC 
payments for spouses who remarry before the age of 57?
    Ms. Kinnard. Probably the biggest problem with the suspension of 
SBP/DIC payments for spouses who remarry before the age of 57 is loss 
of independence which was paid for by the military spouse's ultimate 
sacrifice. Why is it that the age of 57 makes it okay to receive both 
benefits in full? Here again is another widow's story. Her name is 
Misty Jeannette Brammer:
          ``As a surviving military spouse, my life has been a constant 
        state of uncertainty since losing my husband over ten years 
        ago. At the young age of 31, I found myself to be a widow. The 
        sudden and tragic loss left me devastated, unsure of my future, 
        and as a single mom raising two children affected by the loss 
        of their father. I came to rely on the connections and support 
        the military offered. It has become a way of life. My husband's 
        service is important to the United States and, as a family we 
        have continued to support military life. As a widow, my life 
        shifted and changed and so did the support from the military. 
        It steadily decreased over time and has been reduced to SSIA, 
        DIC, SBP, Tricare (in which I now have to pay my own premiums), 
        some educational benefits and VA home loan. These benefits 
        have, and continue to be, an important resource to establishing 
        and continuing my life as a surviving military spouse, mother, 
        and productive member of my community. This is not easy to do 
        after a traumatic loss. I have come to rely on these resources 
        to be independent and not vulnerable.
          It has taken time to rebuild by life. It has been difficult 
        and unbearable at times. The benefits afforded to me by the 
        loss of my husband are both a resource and burden. Under 
        current military law, if I remarry before the age of 57 
        (completely arbitrary age), I lose all of these benefits and 
        thus my independence. It is as if the United States disregards 
        my loss in the presence of another spouse. This is so 
        contradictory to current United States values. More 
        importantly, it forces me to revisit the trauma I have already 
        experienced and places me in a vulnerable economic position. It 
        also violates my civil right to marry (without penalty). This 
        has caused even more undue stress in my life including 
        jeopardizing relationships, the ability to have additional 
        children (out of wedlock) and causing social distance. This 
        burden has been an emotional strain. The current law is 
        penalizing to younger spouses. It doesn't make sense that those 
        over the age of 57 keep benefits upon remarriage. Still 
        further, those who remarry and that marriage ends get some of 
        their benefits reinstated. The current law forces surviving 
        spouses to be dependent on another (new) spouse despite their 
        loss. A remarriage doesn't negate the loss of our soldiers. It 
        doesn't take away the pain or the hardship we have and continue 
        to experience. It doesn't remove the ongoing trauma. Worse yet, 
        it forces us to be economically vulnerable.
          We are respectfully requesting assistance in changing current 
        law. It is important to keep all benefits intact for survivors 
        regardless of marital status. To lose these benefits creates 
        further undue burden and places surviving spouses at risk.''
    Many of the younger surviving spouses feel this way. Those that 
have made the choice to turn over SBP and DIC to their children in 
order to receive full SBP and full DIC benefits have come to regret it. 
This is especially true when they realize that the SBP will end forever 
when the children reach maturity. This decision for many was made 
shortly after learning of the spouse's death when they are in shock and 
really not in a frame of mind to make such a life changing decision.
    It is the same with remarriage before age 57, many are not aware 
that they will lose most of their benefits. However at the age of 57 
with remarriage, the widow will receive the full SBP and the full DIC 
with no offset. The catch is that the premiums paid to the widow 
originally must now be paid back to the government in full. Depending 
on the amount, this again could be a burden for the re-married widow.
    Mr. Coffman. This question highlights two separate inequities: (a) 
the difference in remarriage age for various programs after which the 
survivor benefit payment continues, and (b) a highly unique inequity 
facing SBP-DIC widows in particular.
    Almost all Federal survivor payments terminate if the survivor 
remarries before age 55, and can be resumed if the second or subsequent 
marriage ends in death or divorce.
    For DIC, however, the age of remarriage after which DIC payments 
may be continued is age 57. The age difference was solely because of a 
funding shortfall in the legislative effort to fix the DIC age 
disparity. Congress only found enough money to reduce the age to 57.
    However, that same law change that reduced the DIC remarriage 
eligibility age to 57 also included language specifying that dual-
eligible SBP and DIC survivors who remarry after age 57 are entitled to 
receive both SBP and DIC annuities in full, without offsetting one for 
the other. This interpretation was upheld by a 2009 Federal Court of 
Appeals ruling (U.S. Court of Appeals, 2008-5108, Patricia R. Sharp v. 
United States).
    So the net effect of current law is to: (a) punish survivors for 
remarrying before age 57 (for DIC) or 55 (for SBP) by suspending their 
annuity payments, and (b) punish dual-eligible SBP/DIC annuitants for 
NOT remarrying after age 57 by continuing to deduct the DIC amount from 
SBP for unremarried survivors. The only fair way to rectify this absurd 
situation is to eliminate the SBP-DIC offset requirement.
    Colonel Strobridge. Our members definitely believe the two have 
separate purposes. SBP is a retiree-purchased insurance plan that is 
intended to replace 55% of SBP-covered retired pay in the event of the 
servicemember/retiree's death for any reason. DIC, on the other hand, 
is indemnity compensation paid by the VA to the survivor of a 
servicemember or retired servicemember whose death is acknowledged to 
have been caused by service in uniform. If a veteran serves a career as 
a federal civilian, purchases federal civilian SBP upon retirement, and 
subsequently dies of a service-caused condition, the federal civilian's 
survivor is not required to forfeit any of his or her federal civilian 
survivor benefit. There is no reason to impose that kind of penalty on 
the survivor of a military retiree who dies in the same circumstance. 
Likewise, no civilian-purchased insurance plan has a clause that denies 
payment if the survivor is eligible for a different survivor benefit.
    Mr. Coffman. What is the impact of the suspension of SBP/DIC 
payments for spouses who remarry before the age of 57?
    Senior Chief Ostrowski. Probably the biggest problem with the 
suspension of SBP/DIC payments for spouses who remarry before the age 
of 57 is loss of independence which was paid for by the military 
spouse's ultimate sacrifice. Why is it that the age of 57 makes it okay 
to receive both benefits in full? Here again is another widow's story. 
Her name is Misty Jeannette Brammer:
          ``As a surviving military spouse, my life has been a constant 
        state of uncertainty since losing my husband over ten years 
        ago. At the young age of 31, I found myself to be a widow. The 
        sudden and tragic loss left me devastated, unsure of my future, 
        and as a single mom raising two children affected by the loss 
        of their father. I came to rely on the connections and support 
        the military offered. It has become a way of life. My husband's 
        service is important to the United States and, as a family we 
        have continued to support military life. As a widow, my life 
        shifted and changed and so did the support from the military. 
        It steadily decreased over time and has been reduced to SSIA, 
        DIC, SBP, Tricare (in which I now have to pay my own premiums), 
        some educational benefits and VA home loan. These benefits 
        have, and continue to be, an important resource to establishing 
        and continuing my life as a surviving military spouse, mother, 
        and productive member of my community. This is not easy to do 
        after a traumatic loss. I have come to rely on these resources 
        to be independent and not vulnerable.
          It has taken time to rebuild my life. It has been difficult 
        and unbearable at times. The benefits afforded to me by the 
        loss of my husband are both a resource and burden. Under 
        current military law, if I remarry before the age of 57 
        (completely arbitrary age), I lose all of these benefits and 
        thus my independence. It is as if the United States disregards 
        my loss in the presence of another spouse. This is so 
        contradictory to current United States values. More 
        importantly, it forces me to revisit the trauma I have already 
        experienced and places me in a vulnerable economic position. It 
        also violates my civil right to marry (without penalty). This 
        has caused even more undue stress in my life including 
        jeopardizing relationships, the ability to have additional 
        children (out of wedlock) and causing social distance. This 
        burden has been an emotional strain. The current law is 
        penalizing to younger spouses. It doesn't make sense that those 
        over the age of 57 keep benefits upon remarriage. Still 
        further, those who remarry and that marriage ends get some of 
        their benefits reinstated. The current law forces surviving 
        spouses to be dependent on another (new) spouse despite their 
        loss. A remarriage doesn't negate the loss of our soldiers. It 
        doesn't take away the pain or the hardship we have and continue 
        to experience. It doesn't remove the ongoing trauma. Worse yet, 
        it forces us to be economically vulnerable.
          We are respectfully requesting assistance in changing current 
        law. It is important to keep all benefits intact for survivors 
        regardless of marital status. To lose these benefits creates 
        further undue burden and places surviving spouses at risk.''
    Many of the younger surviving spouses feel this way. Those that 
have made the choice to turn over SBP and DIC to their children in 
order to receive full SBP and full DIC benefits have come to regret it. 
This is especially true when they realize that the SBP will end forever 
when the children reach maturity. This decision for many was made 
shortly after learning of the spouse's death when they are in shock and 
really not in a frame of mind to make such a life changing decision.
    It is the same with remarriage before age 57, many are not aware 
that they will lose most of their benefits. However at the age of 57 
with remarriage, the widow will receive the full SBP and the full DIC 
with no offset. The catch is that the premiums paid to the widow 
originally must now be paid back to the government in full. Depending 
on the amount, this again could be a burden for the re-married widow.
    Mr. Coffman. What is the impact of the suspension of SBP/DIC 
payments for spouses who remarry before the age of 57?
    Mr. Davis. The threat of suspension provides two choices: it forces 
survivors to exist years on an offset pittance, while bearing the full 
cost of rearing, educating and housing their children; or it forces 
survivors to live a lie with a new love they are unable to marry until 
a certain age gate is met. There should be no suspension of SBP/DIC 
payments because a surviving spouse wants to remarry--at any age.
    SBP is similar to life insurance that's purchased by a military 
retiree to provide up to 55 percent of their retirement pay to a 
surviving spouse; however, unlike life insurance, all payouts stop if 
the surviving spouse remarries before age 55. No life insurance company 
stops paying eligible beneficiaries just because they remarry, yet the 
Department of Defense does.
    DIC is a modest indemnity compensation benefit of $1,254 per month 
that the VA pays to surviving spouses whose loved ones died prematurely 
from a service-connected wound, illness or injury.
    As stated in testimony, the two payments are mutually exclusive and 
paid for two different reasons from two different federal departments, 
yet all monthly SBP payments are first offset by the full DIC amount, 
which is why the offset is aptly called the ``Widow's Tax.''
    To receive concurrent SBP and DIC payments, the annuitant must not 
only be eligible to receive both, but the DIC entitlement must be a 
result of a remarriage after the age of 57.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALZ
    Mr. Walz. How does the current law impact the value of these 
benefits and the perception of the impacts to the quality of life for 
surviving spouses?
    Ms. Kinnard. When one loses a spouse, usually they lose at least 
half of their combined income. The service member thought when they 
signed up for the Survivor Benefit Plan (SBP), that they were helping 
to offset that loss if they died before the spouse. Because of the 
current law with SBP/Dependents Indemnity Compensation (DIC) offset, 
the income is even less than half, often times as low as a third of 
what the combined income had been. To put it mildly, this does make a 
dramatic difference in the surviving spouse quality of life. An example 
from a military widow, Deborah Tainsh, is provided here as presented:
          ``My husband, USMC Sgt Major David Tainsh who retired in 
        1994, served 28 years in the Marine Corps that included serving 
        in Vietnam and the first Persian Gulf War.
          When he retired he paid into the SBP program to protect me in 
        the event of his death.
          After our son was KIA in 2004 in Iraq, my husband was placed 
        at 100% disabled/unemployable from service connected issues. 
        With the passing of concurrent receipt for Veterans, his Marine 
        Corps retirement, VA, and Social Security provided a household 
        income that allowed me a home and lifestyle that my husband had 
        earned through 28 years of service in the Marine Corps and 
        health issues that followed.
          After his death on December 23, 2014 from stage 4 lung and 
        brain cancer that doctors attributed to Agent Orange, my 
        monthly income dropped to 1/3 of what our household income had 
        been. Hence, I lost my home due to the inability to make the 
        payment.
          If I had been able to receive both my husband's VA and the 
        full SBP he paid for, I could have afforded to keep my home.
          It is issues such as this that bring to the surface the 
        reason for Congress to pass concurrent receipt for military and 
        veteran's widows.''
    This widow's story is one of many. Every story maybe a little 
different, however the bottom line is the same that there is a huge 
adjustment that must be made for military surviving spouses to even 
survive.
    Mr. Walz. How do your members view SBP and DIC in terms of 
different programs for different circumstances?
    Colonel Strobridge. Our members definitely believe the two have 
separate purposes. SBP is a retiree-purchased insurance plan that is 
intended to replace 55% of SBP-covered retired pay in the event of the 
servicemember/retiree's death for any reason. DIC, on the other hand, 
is indemnity compensation paid by the VA to the survivor of a 
servicemember or retired servicemember whose death is acknowledged to 
have been caused by service in uniform. If a veteran serves a career as 
a federal civilian, purchases federal civilian SBP upon retirement, and 
subsequently dies of a service-caused condition, the federal civilian's 
survivor is not required to forfeit any of his or her federal civilian 
survivor benefit. There is no reason to impose that kind of penalty on 
the survivor of a military retiree who dies in the same circumstance. 
Likewise, no civilian-purchased insurance plan has a clause that denies 
payment if the survivor is eligible for a different survivor benefit.
    Mr. Walz. How does the current law impact the value of these 
benefits and the perception of the impacts to the quality of life for 
surviving spouses?
    Senior Chief Ostrowski. When one loses a spouse, usually they lose 
at least half of their combined income. The service member thought when 
they signed up for the Survivor Benefit Plan (SBP), that they were 
helping to offset that loss if they died before the spouse. Because of 
the current law with SBP/Dependents Indemnity Compensation (DIC) 
offset, the income is even less than half, often times as low as a 
third of what the combined income had been. To put it mildly, this does 
make a dramatic difference in the surviving spouse quality of life. An 
example from a military widow, Deborah Tainsh, is provided here as 
presented:
          ``My husband, USMC Sgt Major David Tainsh who retired in 
        1994, served 28 years in the Marine Corps that included serving 
        in Vietnam and the first Persian Gulf War. When he retired he 
        paid into the SBP program to protect me in the event of his 
        death. After our son was KIA in 2004 in Iraq, my husband was 
        placed at 100% disabled/unemployable from service connected 
        issues. With the passing of concurrent receipt for Veterans, 
        his Marine Corps retirement, VA, and Social Security provided a 
        household income that allowed me a home and lifestyle that my 
        husband had earned through 28 years of service in the Marine 
        Corps and health issues that followed. After his death on 
        December 23, 2014 from stage 4 lung and brain cancer that 
        doctors attributed to Agent Orange, my monthly income dropped 
        to 1/3 of what our household income had been. Hence, I lost my 
        home due to the inability to make the payment. If I had been 
        able to receive both my husband's VA and the full SBP he paid 
        for, I could have afforded to keep my home. It is issues such 
        as this that bring to the surface the reason for Congress to 
        pass concurrent receipt for military and veteran's widows.''
    This widow's story is one of many. Every story maybe a little 
different, however the bottom line is the same that there is a huge 
adjustment that must be made for military surviving spouses to even 
survive.
    Mr. Walz. How do your members view SBP and DIC in terms of 
different programs for different circumstances?
    Mr. Davis. The 1.3 million members of the Veterans of Foreign Wars 
of the U.S. reflect the overall demographics provided by the 
Departments of Defense and Veterans Affairs, in that there are roughly 
2 million military retirees out of the nation's 21 million total 
veterans. As such, less than 10 percent of all veterans (and VFW 
membership) would know what the DOD Survivor Benefit Plan is, and even 
fewer would know about the VA's Dependency and Indemnity Compensation 
program.
    However, once educated about the two programs being mutually 
exclusive and paid for two different reasons from two different federal 
departments, all are united in eliminating the offset, and not to just 
to subsidize it with increased SBP payments, as recommended by the 
Military Compensation and Retirement Modernization Commission.
    Ending the SBP-DIC offset is reflected in the passage of VFW 
National Resolutions, the most recent of which, Resolution 415, was 
passed unanimously by delegates attending the 116th VFW National 
Convention in Pittsburgh on July 20, 2015.
    Similarly, the VFW also supports eliminating the dollar-for-dollar 
offset that continues to impact service-connected disabled military 
retirees with VA ratings of 40 percent or below, and Chapter 61 
retirees who were medically retired with less than 20 years.
    The 10-year concurrent receipt phase-in period for retirees with 50 
percent or higher disability ratings was accomplished in 2014. Now it's 
time to provide the same equity to all military retirees, regardless of 
their disability rating percentage. This VFW position is supported by 
Resolution 413, which was also passed unanimously by delegates 
attending the 116th VFW National Convention in Pittsburgh on July 20, 
2015.

                                  [all]
</pre></body></html>
